OFFICE OF AUDIT
ATLANTA REGION
ATLANTA, GEORGIA




      The Owner of the West Village Expansion
   Project, Durham, NC, Failed to Comply With Its
          Regulatory Agreement With HUD




AUDIT REPORT NUMBER 2012-AT-1014            JULY 27, 2012
                                                        Issue Date: July 27, 2012

                                                        Audit Report Number: 2012-AT-1014




TO:            Dottie R. Troxler, Director, Greensboro Multifamily Housing Hub, 4FHMLA

               //signed//
FROM:          James D. McKay, Regional Inspector General for Audit, Atlanta Region, 4AGA


SUBJECT:       The Owner of the West Village Expansion Project, Durham, NC, Failed To
               Comply With Its Regulatory Agreement With HUD


    Enclosed is the U.S. Department of Housing and Urban Development (HUD), Office of
Inspector General (OIG), final results of our review of the West Village Expansion Project.

    HUD Handbook 2000.06, REV-4, sets specific timeframes for management decisions on
recommended corrective actions. For each recommendation without a management decision,
please respond and provide status reports in accordance with the HUD Handbook. Please furnish
us copies of any correspondence or directives issued because of the audit.

    The Inspector General Act, Title 5 United States Code, section 8L, requires that OIG post its
publicly available reports on the OIG Web site. Accordingly, this report will be posted at
http://www.hudoig.gov.

   If you have any questions or comments about this report, please do not hesitate to call me at
404-732-2393.
                                           July 27, 2012
                                           The Owner of the West Village Expansion Project, Durham,
                                           NC, Failed To Comply With Its Regulatory Agreement With
                                           HUD



Highlights
Audit Report 20XX-XX-XXXX


 What We Audited and Why                    What We Found

We audited the West Village                  The owner violated its regulatory agreement by using
Expansion Project, a U.S. Department         project funds for unauthorized purposes. The owner
of Housing and Urban Development             repaid $502,127 for previous advances from its
(HUD) Section 220-insured property,          managing member’s principals, paid $225,000 for
due to a citizen’s hotline complaint.        unnecessary legal expenses, did not timely pay its
The anonymous complainant alleged            mortgage, and underfunded the project’s replacement
that the principals of L8, LLC, the          reserve account by $36,400. It took these actions
managing member of the ownership             without HUD approval at a time when the property
entity, spent an excessive amount of         had no surplus cash and the mortgage was
project funds on legal fees, transferred     delinquent. As a result, the project had fewer funds
more than $500,000 to another entity         to operate, pay for future repairs, and keep the
owned by it, and failed to keep the          mortgage out of default, thus placing HUD at risk for
mortgage current. Our objectives were        the $54 million mortgage.
to evaluate the merits of the complaint
and determine whether the owner
administered the project in accordance
with its regulatory agreement with
HUD.

 What We Recommend

On July 20, 2012, a new investor
provided funds to bring the mortgage
and required escrows current as well as
fund the unauthorized distributions
cited in this report. Accordingly, all
issues have been resolved, and our
recommendations will be closed upon
issuance.
                            TABLE OF CONTENTS


Background and Objectives                                                       3

Results of Audit
      Finding: The Project’s Owner Failed To Comply With Regulatory Agreement
               Requirements                                                     4

Scope and Methodology                                                           8

Internal Controls                                                               10

Appendixes
A.    Schedule of Questioned Costs and Funds To Be Put to Better Use            11
B.    Auditee Comments and OIG’s Evaluation                                     12




                                            2
                      BACKGROUND AND OBJECTIVES

The West Village Expansion Project is the second phase of the West Village development in
downtown Durham, NC. The project contains six buildings built between 1884 and 1923 for use in
the tobacco industry and redeveloped in 2008 into a residential and commercial development.
These buildings house 212 apartment units, 103,424 square feet of leasable commercial space, and
25,284 square feet of storage space.

The project is owned by Fuller Street Development, LLC, and the managing member of the
ownership entity is L8, LLC. During our audit period, Drucker and Falk, LLC, was the owner’s
management agent. The project has a complex operating and ownership structure. It operates using
a master lease structure for tax credit and investment reasons. The management agent collects rents
and deposits the funds with entities called a commercial subtenant and residential subtenant. The
subtenants use the funds to pay for necessary project expenses and make monthly lease payments to
another entity called the master tenant, which in turn makes a lease payment to the owner. The
owner then uses the lease payment to make the mortgage payment and fund the replacement reserve
account.

The U.S. Department of Housing and Urban Development (HUD) entered into a regulatory
agreement with the owner on June 22, 2006, under HUD’s Section 220-insured multifamily
program. The Section 220 program insures mortgages on new or rehabilitated housing located in
designated urban renewal areas and in areas with concentrated programs of code enforcement and
neighborhood development. The program provides mortgage insurance to the lender on the
mortgage but does not provide HUD assistance to tenants or restrict tenancy. The $54.6 million
mortgage was financed at a fixed interest rate of 5.59 percent and was to be repaid in 480 monthly
payments of $285,065.

HUD notified the owner in a February 22, 2011, letter that it was in violation of its regulatory
agreement for failing to file required 2009 audited financial statements. HUD’s Departmental
Enforcement Center issued a limited denial of participation to the owner on November 4, 2011, for
failing to file the financial statements but rescinded it on December 21, 2011, after the financial
statements were filed.

We received an anonymous hotline complaint alleging that the principals of L8, LLC, were not
following the requirements in the regulatory agreement. Specifically, the complaint alleged that the
owner spent an excessive amount of project funds on legal fees, transferred more than $500,000 to
another entity that it owned, and failed to keep the mortgage current. The complainant’s allegations
proved to be generally accurate.

Our objectives were to evaluate the merits of the complaint and determine whether the owner
administered the project in accordance with its regulatory agreement with HUD.




                                                 3
                                       RESULTS OF AUDIT


Finding: The Project’s Owner Failed To Comply With Regulatory
Agreement Requirements
The owner violated its regulatory agreement with HUD by using project funds for unauthorized
purposes. Principals of L8, LLC, the managing member, improperly repaid $502,127 in
advances from project funds to another entity owned by them, paid $225,000 for unnecessary
legal expenses, did not timely pay the mortgage, and underfunded the project’s replacement
reserve account by $36,400. The violations occurred because the owner disregarded the
regulatory agreement requirements. This occurred without HUD’s knowledge or approval at a
time when the project did not have surplus cash1 and was delinquent on its mortgage payments.
As a result, the project had fewer funds to operate, pay for future repairs, and keep the mortgage
out of default, thus placing HUD at risk for the $54 million mortgage.



    The Owner Improperly Repaid
    Advances

                  The managing member’s principals advanced funds to the project from another
                  entity that they owned because the project’s rental revenues did not meet
                  expectations and were, therefore, not sufficient to pay all operating expenses.
                  However, the owner then disregarded its regulatory agreement when it used funds
                  meant for normal project operation and payment of the mortgage to improperly
                  repay the advances. Normally, the commercial and residential subtenants made the
                  required lease payments to the master tenant, which in turn made the lease payment
                  to the owner so that it could make the mortgage payments. Instead, between April
                  and July 2011, the owner used these funds to make 11 transfers totaling $502,127 to
                  its other entity to repay the advances. At the time, the project had no surplus cash,
                  and the mortgage was delinquent. HUD Handbook 4370.2 REV-1 Section 2-11
                  allows for repayment of advances only from surplus cash with prior written approval
                  from HUD.

    The Owner Paid Unnecessary
    Legal Expenses

                  The owner used funds meant to pay the mortgage to instead pay $225,000 in legal
                  expenses not necessary to operate the project. HUD Handbook 4370.2 explains
                  that eligible legal expenses consist of services incurred on behalf of the project
1
 Surplus cash is defined in section 13(f) of the regulatory agreement as any cash remaining after the payment of all
sums due under the terms of the mortgage, all amounts required to be deposited in the replacement reserve account,
and all other obligations of the project unless deferment of the payment has been approved by HUD.

                                                          4
           such as legal fees for eviction. It specifically excludes legal fees paid on behalf of
           the mortgagor. The owner stated that these expenses, paid between April and
           June 2011, were for legal work to achieve final endorsement on the HUD-insured
           loan and for an unsuccessful attempt to refinance that loan at a significant interest
           rate reduction. Supporting documentation provided by the owner confirmed that
           use of the funds. The principals could not agree on the terms required to achieve
           final endorsement, and the refinance effort failed because it was contingent on the
           final endorsement. Section 6 of the regulatory agreement required written HUD
           approval before the owner could pay any expenses not needed to operate the
           project when the project did not have surplus cash or was delinquent on its
           mortgage. HUD officials stated that they would not have granted approval
           because of the project’s financial condition.


The Owner Did Not Timely
Make Mortgage and
Replacement Reserve Payments

           The owner was consistently behind on its mortgage and replacement reserve
           payments. Section 1A of the regulatory agreement required the owner to make all
           payments due under the note and mortgage in a timely manner. The $285,065
           monthly mortgage payment (principal and interest) was considered to be
           delinquent after 30 days of nonpayment and in default after 60 days. The lender
           could elect to assign it after 75 days of delinquency. Between January 2010 and
           March 2011, the owner was delinquent on 10 of the 15 monthly mortgage
           payments. Beginning in March 2011 and continuing through July 2012, the
           owner consistently made the mortgage payment after the 60 day mark, but before
           the 75 day mark, thus maintaining a rolling default status.

           The owner made the replacement reserve payments, along with the monthly
           mortgage payment, to an account controlled by the mortgage servicer. Section
           2(a) of the regulatory agreement required the owner to deposit $18,200 per month
           into the account to ensure the availability of funds for future repairs. However, as
           of February 2012, the owner was 2 months behind on its mortgage, leaving the
           replacement reserve account underfunded by $36,400.

           If the owner had not elected to disregard HUD requirements by improperly
           repaying more than $500,000 in previous advances and $225,000 in ineligible
           legal fees, it would have been able to bring the mortgage and replacement reserve
           payments current.




                                             5
The Owner Complied With
Other Requirements

             The owner and the property management agent generally complied with other
             regulatory agreement requirements. The owner, through the management agent,
             properly accounted for tenant security deposits and lease receipts and properly
             accounted for and paid project operating expenses. In addition, the property was
             well maintained. The mortgage servicer conducted a physical inspection of the
             property on July 8, 2011, and found the property to be in excellent condition. The
             inspection report stated that there were no health or safety issues, no accessibility
             or regulatory noncompliance issues, no maintenance issues that would impair the
             value of the property, and no deferred maintenance.


Conclusion

             The owner violated its regulatory agreement with HUD by using project funds for
             unauthorized purposes. It repaid $502,127 for previous advances from its
             managing member’s principals, paid $225,000 for unnecessary legal expenses,
             failed to timely pay its mortgage, and underfunded the project’s replacement
             reserve account by $36,400. These violations occurred without HUD’s approval
             at a time when the project did not have surplus cash and the owner was delinquent
             on its $54 million HUD-insured mortgage. However, the owner, through its
             management agent, properly complied with other regulatory requirements and
             maintained the project in excellent condition. The owner must repay amounts
             totaling $763,527 to the proper project account(s) and use the funds to bring the
             mortgage and replacement reserve account current. The owner’s actions also
             make the owner liable for sanctions under HUD’s regulations and civil action
             under Title 12 of the United States Code.

             On July 20, 2012, a new investor provided funds to bring the mortgage and
             required escrows current as well as fund the unauthorized distributions cited in
             this report. Accordingly, all issues have been resolved, and our recommendations
             will be closed upon issuance.


Recommendations


             We recommend that the Director of the Greensboro Office of Multifamily Housing

             1A.    Recover the $502,127 in unauthorized distributions and $225,000 used for
                    unauthorized legal expenses. The funds should first be used to bring the
                    mortgage (1B) and replacement reserve account current (1C), and any
                    remaining funds should be deposited into the project’s replacement reserve
                                               6
      or a restricted capital account which requires HUD approval for release of
      the funds.

1B.   Require the owner to pay $570,130 in principal and interest, or other amount
      required to bring the mortgage current.

1C.   Require the owner to deposit $36,400, or the current unfunded amount, into
      the replacement reserve account to bring the account current.




                                7
                         SCOPE AND METHODOLOGY

Our objectives were to evaluate the merits of the complaint and determine whether the owner
administered the project in accordance with its regulatory agreement with HUD.

To accomplish our objectives, we reviewed

       The regulatory agreement between HUD and the project entities and HUD Handbooks
       4370.2, REV-1 (Financial Operations and Accounting Procedures for Insured
       Multifamily Projects); 4350.1 (Multifamily Asset Management Project Servicing); and
       4381.5 (Management Agent Handbook, appendix 3b: HUD-9839-B, Project Owner’s
       and Management Agent’s Certification for Multifamily Housing Projects for Identity-of-
       Interest of Independent Management Agents).

       The owner’s and management agent’s accounting records, audited financial statements
       for 2009 and 2010, general ledgers, bank statements, tenant listings, property inspection
       reports, cash receipts and disbursements, invoices, and employee listings.

The complaint contained specific allegations, all of which we were able to confirm. The owner
did use $225,000 of project funds to pay legal fees and transferred $502,000 to another entity
owned by its managing member’s principals while the project was in default on its mortgage
(finding 1). Also, project funds did not always flow through the master tenant and owner as
outlined in the operating agreement, and the project’s equity partner did make two loan payments
on behalf of the project as alleged in the complaint. We noted the flow of funds as a minor
deficiency and discussed it with the owner’s representative since it had no apparent impact to
HUD.

We interviewed the owner’s finance director, management agent employees, and the HUD
Greensboro Office of Multifamily Housing staff members involved with oversight of the project.
We selected several nonstatistical samples as described below. The results from these samples
apply only to the sampled items and were not projected to the universe as a whole.

We selected a nonstatistical sample of 5 months from a universe of 32 months to test the tenant
security deposit accounts. This included the 31 months in our review scope, and we expanded
our universe to include 1 additional month. These 5 months were randomly selected using a
random number generator, and we used the same 5 months for both the residential and
commercial security deposit accounts.

We selected a nonstatistical sample of 3 months from a universe of 31 months in our review
scope to test lease payment deposits. These 3 months were randomly selected using a random
number generator, and we used the same 3 months for both the residential and commercial
security deposit accounts.

We selected a nonstatistical sample of 50 checks for residential expenses from a universe of
2,851 checks written during our audit scope and a sample of 25 checks for commercial expenses

                                                8
from a universe of 854 checks written during the same period. We selected these checks using a
random number generator.

We tested all electronic data relied upon during the performance of the various review steps. We
conducted tests and procedures to ensure the integrity of computer-processed data that were
relevant to our audit objective. The tests included but were not limited to comparisons of
computer-processed data to invoices and other supporting documentation. We found the
electronic data to be generally reliable.

We performed our onsite work from December 20, 2011, through February 17, 2012, at the
project’s administrative offices located at 604 West Morgan Street, Durham, NC. The review
generally covered the period April 2009 through October 2011 and was expanded as determined
necessary.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.




                                               9
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

       Effectiveness and efficiency of operations,
       Reliability of financial reporting, and
       Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.


 Relevant Internal Controls

               We determined that the following internal control was relevant to our audit
               objectives:

                      Compliance with applicable laws and regulations – Policies and procedures
                      to ensure that resource use is consistent with laws and regulations.

               We assessed the relevant control identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.

 Significant Deficiencies

               Based on our review, we believe that the following item is a significant deficiency:

                      The owner failed to comply with HUD requirements (see finding 1).




                                                 10
                                   APPENDIXES

Appendix A

                SCHEDULE OF QUESTIONED COSTS


                            Recommendation             Ineligible 1/
                                    number
                                 1A                       $727,127
                                 1B                        570,130
                                 1C                         36,400

                                 Total                  $1,333,657


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or Federal, State, or local
     policies or regulations.




                                            11
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




                         12
13
Comment 1




            14
15
Comment 2




Comment 3




            16
Comment 4




Comment 5




            17
Comment 6




            18
Comment 4




            19
Comment 7




            20
Comment 4
Comment 7




Comment 8




            21
Comment 9




Comment 4
Comment 7




Comment 10




             22
23
                         OIG Evaluation of Auditee Comments

Comment 1   We modified the report to reflect that prior to the March 2011 payment, mortgage
            payments were regularly delinquent, and the consistent rolling default status did
            not begin until that date. We also noted that section 1 of the regulatory agreement
            states that “Owners, except as limited by paragraph 17 hereof, assume and agree
            to make promptly all payments due under the note and mortgage.” The
            requirement gives no consideration to whether there are available funds to
            promptly make all payments. In addition, as stated in the report, the owner would
            have had funds available to make the required mortgage payments had it not
            elected to improperly repay advances or pay mortgagor legal expenses with
            project funds.

Comment 2   A schedule of reserve for replacement account activity provided by the mortgagee
            showed that as of February 2, 2012, the owner was two months behind on its
            scheduled deposits. Specifically, the schedule shows that the owner had not made
            reserve for replacement payments for May 2011 and October 2011.

Comment 3   While the owner, through its management agent, properly paid expenses
            necessary to operate the project and maintained its physical condition, the 11
            improper advance repayments were detrimental to the project because it was
            deprived of the funds needed to bring the mortgage current.

Comment 4   We recognized that the project had experienced periods of less revenue than
            anticipated; however, we also noted that if the owner had not elected to
            improperly repay more than $500,000 in previous advances and pay $225,000 in
            unnecessary legal expenses then funds would have been available to bring the
            mortgage current.

Comment 5   The report correctly states that the 2011 mortgage refinancing effort failed for the
            reasons stated. The owner’s comments state that there is a planned cash infusion
            by a new investor and the owners still plan to refinance the mortgage.

            On July 20, 2012, we were informed by HUD that control of L8, LLC, the
            managing member of Fuller Street Development, LLC, had changed. As part of
            this change, a new investor provided funds to bring the mortgage and required
            escrows current as well as fund the unauthorized distributions cited in this report.

Comment 6   According to HUD Handbook 4370.2, the legal expense account should only be
            used for fees associated with operating costs such as rental collections, not
            expenses of the mortgagor. We recognize that while the legal expenses may have
            been related to the project, they were not a necessary requirement to operate the
            project. Section 6b of the regulatory agreement requires that all expenses paid
            from the project be reasonable and necessary to operate the project unless HUD
            has granted prior written approval for the expense.

                                             24
Comment 7     While the Reznick Average Daily Cash Balance report provided as an attachment
              to the owner’s comments made note of the payments made to the owner from the
              residential and commercial subtenants, this did not necessarily indicate that the
              funds transferred to the owner actually went towards debt service payments as
              indicated by the Reznick report. For example, in April 2011, the Reznick report
              indicated that $665,019 was transferred from the subtenants to the owner and
              noted these payments were debt service payments. Upon review of the owners’
              bank statements, we verified the transfers from the subtenants but determined that
              only $359,013 of the $665,019 actually went towards debt service payments. The
              remainder was used to repay owner advances and owner legal expenses not
              necessary to operate the project.

Comment 8     While the project may not have had prior violations of the regulatory agreement
              with regard to improper payment of advances, unnecessary legal fees, and
              delinquent reserve for replacement payments, the project was cited by HUD’s
              Departmental Enforcement Center for failure to timely submit annual audit
              reports, which is also a violation of the regulatory agreement with HUD.

Comment 9     Concluding that the LLC derived no benefits from the improper repayment of
              advances and the unnecessary legal expenses is an inaccurate statement. The
              improper repayment of advances represents an inflow of cash to the owner in
              excess of $500,000, and if the $225,000 in legal expenses had not been paid from
              project funds the owner would have had to make the payments from its own
              funds.

Comment 10 The improper repayment of advances and the unnecessary legal expenses are both
           substantial and repeated activities. These activities amount to more than
           $700,000 in ineligible expenses, an arguably substantial amount. In addition, the
           improper repayment of advances took place in 11 transactions over the course of
           4 months, and the unnecessary legal expenses took place in 5 transactions over the
           course of 3 months. The transactions were not only substantial, they were
           repetitive in nature.

              On July 20, 2012, a new investor provided funds to bring the mortgage and
              required escrows current as well as fund the unauthorized distributions cited in
              this report. Accordingly, we deleted the recommendation that HUD consider
              administrative sanctions and civil money penalties against the owner for violating
              the project’s regulatory agreement.




                                              25
